No.

In The
SUPREME COURT OF THE UNITED STATES
LESLIE T. JACKSON,
Petitioner,
v.
DISTRICT OF COLUMBIA
Respondent.

To The District Of Columbia Court Of Appeals

PETITION FOR WRIT OF CERTIORARI
PROOF OF SERVICE
I, Leslie T. Jackson, do swear or declare that on this date, November 14,
2019, as required by Supreme Court Rule 29,1 have served the enclosed PETITION
FOR A WRIT OF CERTIORARI AND SUPPLEMENTAL APPENDIX on each party
to the above proceeding or the party’s counsel, and on each other person required to
be served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.

The names and addresses of those served are as follows:

Todd Kim, Esq,
Solicitor General
Carl Schifferle, Esq.
Assistant Attorney General
Office of the Solicitor General
Office of the Attorney General
441 4th Street, N.W., Suite 600 South
Washington, D.C. 20001

Leslie T. Jackson

